July 1, 2009

SUSAN M. BROWNELL
VICE PRESIDENT, SUPPLY MANAGEMENT

SUBJECT: Audit Report – Flats Sequencing System Contractual Remedies
         (Report Number CA-AR-09-006)

This report presents the results of our audit of the Flats Sequencing System (FSS)
contractual remedies (Project Number 09YG015CA000). Our objective was to evaluate
the adequacy of the contractual actions planned for the disposition of the preproduction
machine payment withhold and to address the production machine first article testing
(FAT) deficiencies. Additionally, we evaluated contract payments made to date in
relation to the contractual requirements of the preproduction and production contracts.
The audit was self-initiated to address financial risks in the FSS program. See
Appendix A for additional information about this audit.

Conclusion:

Management of the FSS contract process resulted in increased financial risk to the U.S.
Postal Service. Specifically, the Postal Service paid the $500,000 preproduction
machine withhold1 to Northrop Grumman (Northrop), the contractor, although the
machine did not meet the original statement of work (SOW) requirements. Additionally,
although the production machine failed to achieve nearly all of the performance
requirements during FAT, the Postal Service continues to provide financing to Northrop
by making milestone payments. Per the terms of the contract, title to the material
purchased by Northrop using these funds does not transfer to the Postal Service until
the Postal Service accepts the FSS first article and production machines. Furthermore,
the Postal Service subjectively increased the amount of financial liability by $61.7 million
in the event of termination for convenience. As of March 31, 2009, the Postal Service
paid Northrop $53.3 million for the preproduction contract2 and $266.7 million for the
production contract. They spent another $241 million on other FSS related contracts,3
bringing the total expenditures on the FSS program to approximately $561 million.



1
  The Postal Service withheld $500,000 as consideration when Northrop failed to achieve the 16,500 contractual
throughput rate during field acceptance testing. Throughput represents the number of flat mailpieces the FSS
machine processes and sorts per hour.
2
  This includes xxxxxxxxxxxx for the FSS prototype machine and xxxxxxxxxxxxx for the FSS preproduction machine.
3
  This includes xxxxxxxxxxxxx for facility related contracts.
Flats Sequencing System Contractual Remedies                                             CA-AR-09-006



Disposition of the $500,000 Preproduction Machine Withhold

The Postal Service paid the $500,000 preproduction machine withhold amount although
the machine did not meet the original SOW requirement for throughput. Postal Service
management agreed to modify the contract to revise the SOW requirement from 16,500
pieces per hour to a subjective “reasonable effort” determination. They also agreed to
pay the withhold amount so Northrop would provide a refurbished integrated tray
converter (ITC) for the preproduction machine. Postal Service management said these
actions would improve the performance of the preproduction and production machines.
However, per the inspection and acceptance – supplies clause of the contract, Northrop
was responsible for the ITC operating properly. Consequently, the Postal Service did
not receive consideration when Northrop failed to meet a key performance requirement
(throughput) of the preproduction contract. Overall, it paid Northrop $53.3 million for the
prototype and preproduction machines including approximately $2 million related to the
field acceptance test. We will report the monetary impact of $500,000 paid to Northrop
as unrecoverable questioned costs4 in our Semiannual Report to Congress. See
Appendix B for our detailed analysis of this topic.

We recommend the Vice President, Supply Management, instruct the FSS production
machine Contracting Officer (CO) that for the remainder of the FSS program, the CO
should:

1. Refrain from revising contract requirements unless adequate justification and
   appropriate consideration is obtained.

2. Protect the Postal Service’s interests by exercising the rights incorporated into the
   inspection and acceptance – supplies clause.

Risks Associated with the Production Machine Contract

Payments made to date for the FSS program do not appear to be commensurate with
the level of performance achieved. As of March 31, 2009, the Postal Service paid
Northrop $266.7 million for the FSS production contract. However, the production
machine failed to achieve nearly all of the performance requirements during the initial
FAT and the Postal Service has not accepted a production system. The Postal Service
continues to provide financing to Northrop by making milestone payments and does not
have title to the material purchased by Northrop with these funds. Furthermore, the
Postal Service subjectively increased the amount of financial liability by $61.7 million in
the event of a termination for convenience. This occurred because the Postal Service,
as a result of negotiations, agreed to the following contract provisions in lieu of standard
contract clauses.



4
  Unrecoverable questioned costs are costs that are unnecessary, unreasonable, or an alleged violation of law or
regulation.




                                                         2
Flats Sequencing System Contractual Remedies                                          CA-AR-09-006



Specifically,

        •   In lieu of standard advance or progress payment clauses, the Postal Service
            agreed to a milestone payment schedule that provides Northrop with contract
            financing and does not transfer title to any material until the Postal Service
            formally accepts delivery of a final product.

        •   The Postal Service added a special clause that provides for a non-standard
            allocation of risk in the event of a termination for convenience before first
            article approval or conditional approval.

Consequently, because of the contractor’s failure to achieve timely first article approval,
the contract’s production and delivery schedule and performance of the FSS program
as a whole, is at risk. Moreover, the Postal Service made payments of at least $216.6
million to Northrop under the milestone payment schedule.

Had the Postal Service obtained proper authorization and structured these payments as
advance payments, it would be entitled to interest valued at $7.7 million from Northrop.
Had the Postal Service used the standard progress payment clause, it would have
acquired title to at least $158.4 million in material that Northrop purchased with Postal
Service funds. Also, the Postal Service assumed financial liability in the event of a
termination for convenience of approximately $121.9 million. We will report the non-
monetary impact of $216,601,258 in milestone payments as disbursements at risk5 and
the monetary impact of $7,733,522 in uncollected interest as unrecoverable revenue
loss6 in our Semiannual Report to Congress. See Appendix B for our detailed analysis
of these topics.

We recommend the Vice President, Supply Management direct Automation Category
Management Center Contracting Officers to:

3. Ensure that any contract utilizing milestone payments include the standard clauses
   for advance or progress payments, as appropriate, to limit risk and protect the Postal
   Service’s interest.

Management’s Comments

Management agreed with recommendations 1 and 2, and partially agreed with the intent
of recommendation 3. However, management disagreed with the findings and
monetary impacts. Management stated the actions taken by the CO were appropriate
business decisions, made in collaboration with internal stakeholders, executed in the
best interest of the Postal Service, and fully documented in accordance with contracting
policies. See Appendix E for management’s comments, in their entirety.

5
 Disbursements made where proper Postal Service internal controls and processes were not followed.
6
 Revenue that should have been recognized for goods delivered or services rendered but were not recognized
because of the passage of time or other circumstances.




                                                       3
Flats Sequencing System Contractual Remedies                                          CA-AR-09-006



Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations, as management’s corrective actions
should resolve the issues identified in the report.

Concerning the disposition of the $500,000 preproduction machine withhold, Northrop
was responsible for producing a machine that met the requirements of the contract. By
releasing the withhold in exchange for a refurbished ITC, the Postal Service paid for
something that was Northrop’s responsibility and failed to hold Northrop to the
requirements of the contract. Both the Postal Service and Northrop were aware of the
risk involved in running the preproduction and production contracts concurrently. That
risk does not diminish Northrop’s responsibility to meet the terms of the preproduction
contract nor the Postal Service’s responsibility to seek damages when the terms of that
contract were not met. Therefore, we continue to consider the $500,000 payment to be
unrecoverable questioned costs. In addition, we will monitor the implementation of
recommendations 1 and 2 as they pertain to the FSS contract for the duration of the
contract.

Concerning the risks associated with the production machine contract, the contract
provisions agreed to by the Postal Service increased its financial risk. The Postal
Service made milestone payments based on a calendar schedule rather than objective
measures. While management comments note that the Postal Service is prepared to
stop milestone payments if adequate progress is not achieved, milestone payments
have continued to flow to the contractor even though progress is severely off schedule.
The Postal Service would have been better protected had they utilized either of the
standard interim payment provisions in the FSS contract.7 Depending on which
standard interim payment method is used, the Postal Service either would have retained
rights to property acquired by Northrop or obtained financing revenue. Under the FSS
contract, the title to material purchased by Northrop does not transfer to the Postal
Service until the Postal Service accepts the FSS machines. Management’s response
stated that, in the event of a termination for convenience, the Postal Service would
obtain control over production components and materials. That would be true if the
standard progress payment clause had been included. However, the production
contract lacks that clause and is silent regarding transfer of title in the event of a
termination.

In addition, we would expect that the value of production components and materials to
the Postal Service would be significantly decreased in the event of a termination, as
there would be no production machines to benefit from excess components or
materials. Therefore, the Postal Service made $216.6 million in milestone payments
without receiving title to materials and even though an FSS machine has not yet been
fully accepted. As such, we continue to consider the $216.6 million in milestone
7
 The Federal Acquisition Regulation termination for convenience clause referenced on page 5 of management’s
comments was also not included in the contract.




                                                       4
Flats Sequencing System Contractual Remedies                        CA-AR-09-006



payments to be disbursements at risk. Absent the standard interim payment clauses,
the milestone payments constitute advance-financing payments. The Supplying
Principles and Practices do not allow the Postal Service to reimburse a supplier for
contract financing costs. Accordingly, the Postal Service should have ensured it
received the interest it is entitled to from Northrop. Therefore, we continue to consider
the $7.7 million in uncollected interest to be unrecoverable revenue loss. We agree with
the Postal Service’s plan to assess the need for an appropriate standard clause for
milestone payments. It is important that future contracts utilizing milestone payments
properly protect the Postal Service.

The OIG considers recommendation 3 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action is completed. The recommendation should not be closed in the Postal
Service’s follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Judith Leonhardt, Director,
Supply Management, or me at (703) 248-2100.

    E-Signed by Miguel Castillo
 VERIFY authenticity with ApproveIt




Miguel A. Castillo
Acting Deputy Assistance Inspector General
 for Support Operations

Attachments

cc: Joseph Corbett
    David E. Williams
    Mark Guilfoil
    Don Crone
    Robert D’Orso
    Susan A. Witt
    Katherine S. Banks




                                               5
Flats Sequencing System Contractual Remedies                                              CA-AR-09-006



                             APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

One daily activity of Postal Service letter carriers is to manually sort flat mail8 into
delivery sequence order. The Postal Service uses high-speed automated equipment to
perform this function for letter mail, but carriers currently handle the flat mailpieces
manually. To improve this process, the Postal Service is developing the FSS.

xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx. As a
result, the primary benefit of the FSS will be eliminating carriers’ manual casing of flat
mail. Once deployment is complete,9 the Postal Service projects an annual operating
savings of $599.5 million. xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxx.

On January 16, 2009, the Postal Service CO notified Northrop that the FSS production
machine failed FAT, because it did not meet key performance requirements of the contract.
The CO advised Northrop that its requests for a conditional approval and to proceed with the
deployment of FSS machines were denied. Additionally, the CO noted that the first article
system failure raised significant implications to the Postal Service’s planned FSS savings.
Specifically, the CO advised Northrop that the Postal Service adjusted field operating
budgets and the loss of operational savings substantially harms the Postal Service.
Consequently, the CO requested Northrop to proceed with urgency and make the necessary
fixes to avoid losses to Postal Service savings. Additionally, to minimize the delay and to
provide Northrop an opportunity to train its installation crews and refine its installation plan,
the CO authorized Northrop to install hardware at certain locations at its own risk.




8
    Examples of flat mail include magazines, large envelopes, newspapers, and catalogs.
9
    Deployment of all 100 machines (Phase 1) is scheduled to be completed in 2010.




                                                          6
Flats Sequencing System Contractual Remedies                           CA-AR-09-006



The CO also accepted Northrop’s request for a two-part first article retest with the first retest
scheduled to be completed in May 2009 and the second retest scheduled for August 2009.
The CO stipulated that the supplier would be responsible for all expenses associated with
the retests.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to evaluate the adequacy of the contractual actions planned for the
disposition of the preproduction machine payment withhold and to address the
production machine FAT deficiencies. Additionally, we evaluated contract payments
made to date in relation to the contractual requirements of the preproduction and
production contracts.

To accomplish our objectives, we reviewed the FSS preproduction and production
contract and files including the contract modifications, FAT results, and the milestone
payment schedule. We obtained the contract payment invoices for the preproduction
and production contracts. We also obtained contract file correspondence. We
monitored the disposition of the previously withheld amount of $500,000. We reviewed
Postal Service’s policy for contract financing and advance and progress payments. We
analyzed contract language to determine whether the Postal Service retained the rights
to the advance purchase of material in the event of a termination. We also interviewed
key contracting personnel, including the CO, Contract Specialist, and Program
Manager.

We conducted this performance audit from January 2009 through July 2009 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objectives. We discussed our observations and conclusions with
management on May 1, 2009, and included their comments where appropriate. We
relied on data obtained from the Postal Service’s Enterprise Data Warehouse, Contract
Authoring Management System, Financial Data Mart, and Application System
Reporting. We did not test the validity of controls over the systems. However, we
obtained source documentation that validated the data we obtained from them.




                                               7
       Flats Sequencing System Contractual Remedies                             CA-AR-09-006



       PRIOR AUDIT COVERAGE

                                                                 Monetary
    Report Title        Report Number      Final Report Date      Impact                  Report Results
Flats Sequencing        DA-AR-09-001      December 23, 2008        None          The audit determined that
System: Program                                                                  program management was
Status                                                                           attentive to system
                                                                                 performance and schedule
                                                                                 risks. However, declines in
                                                                                 mail volume introduce a
                                                                                 substantial new deployment
                                                                                 risk to the program that
                                                                                 requires management to
                                                                                 develop a mitigation plan.
Management of           CA-MA-09-002      December 1, 2008            None       The report did not identify
Contract Changes                                                                 any unnecessary or
– Flats Sequencing                                                               inappropriate increased costs
System                                                                           to the Postal Service
                                                                                 because of changes to the
                                                                                 FSS contracts. However, the
                                                                                 Postal Service did not fully
                                                                                 document the basis of a
                                                                                 payment withhold when a
                                                                                 contract requirement was not
                                                                                 met. As a result, it was not
                                                                                 apparent whether the
                                                                                 withhold amount was
                                                                                 appropriate and reasonable.
Flats Sequencing        DA-AR-08-006      June 4, 2008                None       The audit determined the
System: Production                                                               Postal Service needed to
First Article Testing                                                            focus greater attention on
Readiness and                                                                    workload, FAT schedule, and
Quality                                                                          critical deliverables.
Flat Sequencing         DA-AR-07-003      July 31, 2007        None              The audit determined that
System Risk                                                                      Postal Service Engineering
Management                                                                       needed to focus greater
                                                                                 attention on risk
                                                                                 management standards to
                                                                                 ensure that the significant
                                                                                 risks associated with
                                                                                 deployment of the FSS were
                                                                                 adequately identified and
                                                                                 managed.
Flats Sequencing        CA-CAR-07-005     December 29, 2006       $91,710,395    This audit disclosed
System Production                                                                questioned costs of
Revised                                                                          $91,710,395. Questioned
Proposal Submitted                                                               costs primarily represented
by Northrop                                                                      direct material and labor.
Grumman
Corporation,
Electronic
Systems Company




                                                          8
      Flats Sequencing System Contractual Remedies                           CA-AR-09-006



                                                              Monetary
    Report Title      Report Number       Final Report Date    Impact                Report Results
Flats Sequencing      CA-CAR-07-003      December 4, 2006     $175,670,235    This audit disclosed
System Production                                                             questioned costs of
Proposal Submitted                                                            $175,670,235. Questioned
by Northrop                                                                   costs primarily represented
Grumman                                                                       direct material and labor.
Corporation,
Electronic Systems
Company




                                                      9
Flats Sequencing System Contractual Remedies                         CA-AR-09-006



                           APPENDIX B: DETAILED ANALYSIS

Disposition of the $500,000 Preproduction Machine Withhold

The original SOW required the supplier to achieve a throughput rate of 16,500
mailpieces per hour. However, modification 18 to the preproduction contract eliminated
the target performance requirement. Specifically, modification 18:

   •   Changed the 16,500 throughput requirement to a subjective "reasonable effort"
       determination.

   •   Released the $500,000 withhold in exchange for a refurbished ITC.

   •   Required Northrop to perform a throughput demonstration using the refurbished
       ITC showing it used a “reasonable effort” to achieve the 16,500 throughput rate.

Postal Service management said they opted for the ITC refurbishment and were willing
to accept a "reasonable effort" determination instead of what was in the SOW for two
primary reasons. First, the Dulles Processing and Distribution Center (P&DC) would be
provided with a more reliable preproduction machine, and second, the production FAT
system would be provided with live mail test time with ITC improvements.

The throughput demonstration results indicated that the ITC showed performance
improvements in two areas - average/run hour and downtime/event. However, the
throughput rate actually decreased when compared with the throughput rate
achieved during field acceptance testing. The throughput rate achieved during field
acceptance testing was 13,545 pieces per hour versus 10,708 at the demonstration. In
addition, it is not clear that Northrop used a “reasonable effort” in achieving the 16,500
throughput requirement because the throughput rate achieved at the demonstration was
only 65 percent (10,708/16,500) of the target requirement. Furthermore, although the
Postal Service said it benefited from the ITC refurbishment, it was not the Postal
Service’s responsibility to pay for the refurbishment. Under the terms of the contract,
the supplier should have assumed responsibility for correcting the ITC at no cost to the
Postal Service. Specifically, according to clause 2-1 "Inspection and Acceptance -
Supplies" in the preproduction contract, the Postal Service may reject defective supplies
or services and:

   •   Require replacement or correction of the defects without cost to the Postal
       Service.

   •   Acquire replacement products at the supplier's expense.

   •   Accept the supplies or services at a reduced price.




                                               10
Flats Sequencing System Contractual Remedies                         CA-AR-09-006



Risks Associated with the Production Machine Contract

The Postal Service’s Test Evaluation and Quality group conducted the FSS production
FAT at the Dulles P&DC. The test lasted for 23 days beginning on November 23, 2008,
and ending on December 20, 2008. The results indicated the production machine failed
to achieve 13 of 17 performance requirements. See Appendix C for the detailed results
of FAT.

Despite the FAT failure, the Postal Service continued to make scheduled payments to
Northrop. The CO said that these payments were considered milestone payments and
they were being made to provide financing to Northrop in advance of delivery of the
FSS machines. The Postal Service’s Supplying Principles and Practices state that
usually the Postal Service pays for supplies and services after delivery or performance.
However, for some purchases, sources may be unavailable or competition too limited
without the availability of advance or progress payments. The Supplying Principles and
Practices include protective clauses for advance and progress payments. Also,
Management Instruction FM-610-2003-1, Advance Payments, requires the supplier to
pay interest on the daily balance of the unliquidated advance payment. In addition, the
Management Instruction states the Vice President, Controller, Finance, must approve
advance payments for more than $1 million and the Manager of Accounting and the
Supply Management Portfolio Manager must approve advance payments of $50,000 to
$1 million.

During contract negotiations, the Postal Service agreed to a milestone payment
schedule that required the Postal Service to finance the contract by making payments to
Northrop before delivery of supplies or the rendering of services. The contract does not
include protective clauses associated with the milestone payment schedule. Originally,
the Postal Service wanted to structure the contract for progress payments, which is
typical for these types of contracts. Progress payments would have allowed the Postal
Service to make payments that were commensurate with the level of performance
achieved. However, per the contract’s negotiation memorandum, Northrop was
unwilling to accept progress payments because that went against its corporate structure
and would affect the way it ‘booked’ sales. The Postal Service did not obtain approvals
or collect interest for the milestone payments made to Northrop. See Appendix D for
the details of the milestone payments made by the Postal Service as of March 31, 2009.

Many of the milestone payments were for material purchased by Northrop for the
production of the FSS machines. However, although the Postal Service has paid
Northrop for the material, it does not have title to the material. According to clause 4-1
“General Terms and Conditions” Section (n), title to items furnished under this contract
will pass to the Postal Service upon acceptance, regardless of when or where the
Postal Service takes physical possession. The Postal Service has not accepted the first
article machine or any production machines. Therefore, title for the material has not
transferred to the Postal Service. If the Postal Service had structured the contract for
progress payments, the Postal Service would have had certain protections built into the




                                               11
Flats Sequencing System Contractual Remedies                            CA-AR-09-006



contract. For example, the standard progress payment clause would have vested title
to material to the Postal Service at the time Northrop acquired or used it.

As of March 31, 2009, the Postal Service paid Northrop at least $158.4 million in
advance for material acquisition. The payments are detailed below.

    •   Three payments totaling $60.2 million for “Production Long Lead Turn On.”

    •   Four payments totaling $90.3 million for “Production Lead Time Material Build
        Up.”

    •   Three payments totaling $7.9 million for “System Deploys – Start.”

Also, during contract negotiations the Postal Service agreed to include special clause
3-57, “Long Lead and Production Material Ordering/Costs”, to the contract. This clause
supersedes certain sections of standard clause 2-5, “First Article Approval – Postal
Service Testing,” of the contract. Under Sections (g) and (h) of standard clause 2-5,
acquisition of materials or components for the balance of the contract quantity or
commencement of production is at the supplier’s sole risk before first article approval.
However, special clause 3-57 reallocated risk from Northrop to the Postal Service for
certain material purchased before first article approval.

The Postal Service’s rationale for abandoning its standard risk allocation provisions in
standard clause 2-5 Sections (g) and (h) and for replacing them with special provisions
is explained in special clause 3-57. Special clause 3-57 states that to assure the Postal
Service of the delivery schedule provided for within the contract at the pricing shown
within the schedule, Northrop must provide for subcontract commitments concerning
material acquisition purchases before the period provided within clause 2-5. However,
this rationale makes less sense when Northrop’s failure to achieve timely first article
approval delays the contract’s production and delivery schedule and as a result,
potentially impacts Postal Service’s savings.
Special clause 3-57 identifies the amount of financial liability for material the Postal
Service will assume in the event of a termination for convenience. According to the
clause, there are two primary trigger points that pass financial liability in the event of a
termination for convenience on to the Postal Service:

•   Section 2(a) states that the Postal Service will assume termination liability for the
    acquisition of the long lead production material after the Postal Service approves or
    conditionally approves the preproduction field acceptance test.
    The Postal Service conditionally approved the preproduction machine on
    May 5, 2008, and as a result, assumed full termination liability associated with the
    “Production Long Lead Turn On” payments. This amounts to approximately
    $60.2 million (three milestone payments were made).



                                               12
Flats Sequencing System Contractual Remedies                                                  CA-AR-09-006




•    Section 2(b) states that the Postal Service will assume termination liability for the
     acquisition of the balance of the production material (non-long lead materials) after
     approval or condition approval of the production first article in-plant test.
     As of March 31, 2009, the Postal Service had not approved or conditionally
     approved the production first article in-plant test and as a result, has not yet
     assumed termination liability for the “Production Lead Time Material Build Up” and
     “System Deploys - Start” payments. As of March 31, 2009, the Postal Service made
     four milestone payments, totaling $90.3 million for “Production Lead Time Material
     Build Up,” and three milestone payments, totaling $7.9 million for “System Deploys –
     Start.”

In addition, Section 2(d) of clause 357 allows the Postal Service to subjectively assume
additional termination liability. Specifically, Section 2(d) allows Northrop an opportunity
to present other existing information supporting design stability and critical performance
of the system to convince the Postal Service to assume termination liability on other
than the first article in-plant test results. In a letter dated June 19, 2008, Northrop
requested the Postal Service assume an additional $61.7 million in termination liability
per Section 2(d) of clause 3-57. The Postal Service agreed to assume the additional
termination liability based on the information Northrop presented. Therefore, as of
March 31, 2009, the Postal Service assumed financial liability in the event of a
termination for convenience for material of approximately $121.9 million.10




10
  The Postal Service is currently negotiating with Northrop to increase the termination liability by $201.8 million,
which would bring the total to approximately $323.7 million.




                                                           13
Flats Sequencing System Contractual Remedies                         CA-AR-09-006



                       APPENDIX C: DETAILED RESULTS OF FAT

                                                                                      Contract
                                     Contract           First Article Test          Requirement
 Performance Criteria
                                   Requirement               Results                  Achieved
                                                                                     (Yes or No)
Throughput Rate 2-           Minimum of 16,500       10,601 Pieces Per Hour              No
Pass                         Pieces Per Hour
Throughput Rate 2-           Minimum of 16,500       12,499 Pieces Per Hour             No
Pass over 45,000             Pieces Per Hour
Pieces
Accuracy Rate                Minimum of 98.70 %              98.60%                     No
Accept Rate                  Minimum of 94.60 %              89.96%                     No
Operational Availability     Minimum of 95.00 %             -16.34%                     No
Rate
Mail Damage Category         Not to Exceed 1 Piece           1.62%                      No
2 Rate                       Per 1,200 Flats
                             Processed (0.083 %)
Mail Damage Category         Not to Exceed 1 Piece         6.35 Pieces                  No
3 Rate                       Per 2,500 Flats
                             Processed
Flyout Rate                  Not to Exceed 10             66.43 Flyouts                 No
                             Flyouts Per 10,000
                             Flats Processed
Throughput Rate Non-         Minimum of 37,000       29,657 Pieces Per Hour             No
2-Pass                       Pieces Per Hour
Flats Identification         Minimum of 99.00 %              90.92%                     No
Coding System Label
Placement Accuracy
Rate
Carrier Automated            Minimum of 99.00 %      This test was not                  No
Street Tray Rack Sort                                conducted because it
Accuracy Retention                                   was known before FAT
Rate                                                 that there were issues
                                                     with the FSS meeting
                                                     this requirement.
Carbon Insert Damage         Not to Exceed 1 Per     This test was not                  No
Rate                         1,000 Pieces            conducted.




                                               14
Flats Sequencing System Contractual Remedies                           CA-AR-09-006



                                                                                        Contract
                                     Contract            First Article Test           Requirement
 Performance Criteria
                                   Requirement                Results                   Achieved
                                                                                       (Yes or No)
Static Discharge             Shall not damage or      This test was not                    No
                             incur degradation of     conducted.
                             performance because
                             of a static discharge
                             set to a level of 11kv
                             into any external
                             surface area of the
                             equipment.
Tray Labeler Jam Rate        Not to Exceed 1 Jam             0.00 Jams                    Yes
                             Per 300 Tray Labels
                             Applied
Remote Encoding              Not to Exceed 10 % of             6.30%                      Yes
Center (REC) Image           Images Sent to the
Volume Rate                  REC
Optical Character            Minimum of 90.00 %               94.60%                      Yes
Reader Performance
Rate
Flats Identification         Minimum of 99.00 %               99.99%                      Yes
Coding System Data
Accuracy Rate




                                               15
Flats Sequencing System Contractual Remedies                                            CA-AR-09-006



                  APPENDIX D: SCHEDULE OF MILESTONE PAYMENTS
                               AS OF MARCH 31, 2009

                                                                             Days
              Payment                 Invoice                                            Uncollected
                                                          Amount              Paid
             Description              Number                                              Interest12
                                                                            Early11
         Major
         Subcontractor
         Turn-on
         (Nonrecurring               90158263                $5,787,365         740           $508,356
         Engineering(NRE)
         /Long Lead 1st 5
         systems)
         Major
         Subcontractor
         Turn-
                                     90159610                 5,787,365         721            493,300
         on(NRE/Long
         Lead 1st 5
         systems)
         Major
         Subcontractor
         Turn-
                                     90161256                 5,787,365         710            484,602
         on(NRE/Long
         Lead 1st 5
         systems)
         Technical Review
                                     90157189                 2,178,897         756            196,176
         Meeting (TRM) 1
         TRM 2                       90159612                 2,178,897         728            187,810
         TRM 3                       90161846                 2,178,897         693            177,397
         TRM 4                       90165427                 2,178,897         655            166,145
         TRM 5                       90166945                 2,178,897         630            158,774
         TRM 6                       90169974                 2,178,897         592            147,617
         TRM 7                       90171579                 2,178,897         567            140,308
         TRM 8                       90174854                 2,178,897         536            131,806
         TRM 9                       90175951                 2,178,897         529            129,890
         TRM 10                      90180040                 2,178,897         469            113,531
         TRM 11                      90182709                 2,178,897         445            107,021
         TRM 12                      90185109                 2,178,897         416             99,179
         TRM 13                      90187089                 2,178,897         389             91,903
         TRM 14                      90189600                 2,178,897         355             82,774

11
   We used June 8, 2009, (30 days after the expected completion of the first FAT retest) as the estimated payment
date for goods delivered.
12
   Uncollected interest was calculated as follows: {(Interest Rate(Number of Days Paid Early/365)*Payment Amount-
Payment Amount)}.




                                                        16
Flats Sequencing System Contractual Remedies                               CA-AR-09-006



                                                                  Days
            Payment              Invoice                                   Uncollected
                                                Amount             Paid
           Description           Number                                     Interest12
                                                                 Early11
        TRM 15                  90139140             2,178,897      318           72,883
        TRM 16                  90194905             2,178,897      298           67,554
        TRM 17                  90197521             2,178,897      269           59,850
        TRM 18                  90200488             2,178,897      222           47,422
        Deployment
        Technical Review        90202410              323,150       214             6,720
        Meeting (DTRM) 1
        DTRM 2                  90205197              323,150       182             5,591
        DTRM 3                  90208157              323,150       152             4,663
        DTRM 4                  90210339              323,150       119             3,645
        DTRM 5                  90212964              323,150        88             2,691
        Production Long
                                90186515            12,500,000      404          550,409
        Lead Turn On #1
        Production Long
                                90188201            27,500,000      369        1,092,087
        Lead Turn On #2
        Production Long
                                90193695            20,194,685      318          675,498
        Lead Turn On #3
        Production Lead
        Time Material           90202081            20,000,000      220          430,443
        Build Up #1
        Production Lead
        Time Material           90204246            10,097,342      194          185,603
        Build Up #1
        Production Lead
        Time Material           90204757            30,097,343      189          540,938
        Build Up #2
        Production Lead
        Time Material           90207111            30,097,343      159          454,430
        Build Up #3
        System Deploys -
                                90203531             2,638,852      200           50,416
        Start #1
        System Deploys -
                                90207110             2,638,852      161           40,348
        Start #2
        System Deploys -
                                90211677             2,638,852      103           25,742
        Start #3
          Totals:                              $216,601,258                   $7,733,522




                                               17
Flats Sequencing System Contractual Remedies          CA-AR-09-006



                      APPENDIX E: MANAGEMENT’S COMMENTS




                                               18
Flats Sequencing System Contractual Remedies        CA-AR-09-006




                                               19
Flats Sequencing System Contractual Remedies        CA-AR-09-006




                                               20
Flats Sequencing System Contractual Remedies        CA-AR-09-006




                                               21
Flats Sequencing System Contractual Remedies        CA-AR-09-006




                                               22
